APPENDIX A
Memorandum Opinion, 9th Circuit Court of Appeals
United States f America v. Ross Colby No. 19-10224

Case 5:17-cr-00168-LHK Document 303 Filed 02/25/21 Page 1 of 4

FILED

NOT FOR PUBLICATION

FEB 25 2021

UNITED STATES COURT OF APPEALS

MOLLY C. DWYER, CLERK

FOR THE NINTH CIRCUIT
UNITED STATES OF AMERICA,
Plaintiff-Appellee,

No.

U.S. COURT OF APPEALS

19-10224

D.C. No.
5:17-cr-00168-LHK-1

v.
MEMORANDUM*

ROSS COLBY,
Defendant-Appellant.

Appeal from the United States District Court
for the Northern District of California
Lucy H. Koh, District Judge, Presiding
Submitted February 12, 2021**
San Francisco, California
Before: BERZON, CHRISTEN, and BADE, Circuit Judges.
Ross Colby was convicted by a jury of five counts of computer fraud against
Embarcadero Media and sentenced to time served. He now seeks to reverse his
conviction on the basis of prosecutorial misconduct. We have jurisdiction under 28
U.S.C. § 1291. We affirm.

*

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).

Case 5:17-cr-00168-LHK Document 303 Filed 02/25/21 Page 2 of 4

Colby focuses on two statements by the government during closing
argument:
First, during the government’s rebuttal closing argument, the prosecutor told
the jury “[y]our role is . . . to find that the government has proven beyond a
reasonable doubt” that Colby is guilty. Defense counsel did not object to the
statement, so we review for plain error. See Fed. R. Crim. P. 52(b); United States v.
Olano, 507 U.S. 725, 730-36 (1993); United States v. Alcantara-Castillo, 788 F.3d
1186, 1190-91 (9th Cir. 2015).
This court evaluated similar statements to juries in United States v. Sanchez,
176 F.3d 1214 (9th Cir. 1999) and United States v. Gomez, 725 F.3d 1121 (9th Cir.
2013). In Sanchez, the prosecutor told the jury that “after the marshal’s service has
done their duty and the court has done its duty . . . you as jurors do your duty
and . . . find these defendants guilty.” 176 F.3d at 1224. In Gomez, the prosecutor
told the jury that “the United States has the burden of proof beyond a reasonable
doubt” and then stated: “Is the evidence that was presented in this case proof
beyond a reasonable doubt? Absolutely. And now it’s your duty to say the
defendant is guilty. . . .” 725 F.3d at 1131.
Sanchez found prosecutorial misconduct in part because the prosecutor “did
not tell the jury that it had a duty to find the defendant guilty only if every element
of the crime had been proven beyond a reasonable doubt.” 176 F.3d at 1225. In

2

Case 5:17-cr-00168-LHK Document 303 Filed 02/25/21 Page 3 of 4

contrast, Gomez found no error because, “[r]ead in context, the prosecutor was
arguing that, if the jury finds that the prosecution has met its burden of proving the
elements beyond a reasonable doubt, then it is the jury’s duty to convict.” 725 F.3d
at 1131 (emphasis in original).
This case is more similar to Gomez than to Sanchez. The prosecutor
correctly stated the jurors’ duty both before and after the statement in question.
And the jury notes confirm that the jury understood its duty. For both reasons,
Colby cannot meet his burden, on plain error review, to show that it is “more
probable than not that prosecutorial misconduct materially affected the fairness of
the trial.” United States v. Ruiz, 710 F.3d 1077, 1082 (9th Cir. 2013) (quoting
United States v. Younger, 398 F.3d 1179, 1190 (9th Cir. 2005)); see also United
States v. Minore, 292 F.3d 1109, 1117-19 (9th Cir. 2002).
Second, the government had the burden to prove that Colby’s actions
resulted in at least a $5,000 loss to Embarcadero Media. 18 U.S.C. §§
1030(a)(5)(A) & (c)(4)(B)(i). In the context of summarizing the extent of financial
harm, the prosecutor told the jury, “What do you think their subscribers thought of
this attack? What do you think their advertisers thought of this attack? What do
you think the people who might be . . . confidential sources for the journalists who
work at Embarcadero’s various papers thought of this attack? Put yourself in their
shoes.” (Emphasis added.) Defense counsel objected to the statement, so we

3

Case 5:17-cr-00168-LHK Document 303 Filed 02/25/21 Page 4 of 4

review for harmless error, with the burden as to prejudice on the government. See
United States v. Morales, 108 F.3d 1031, 1040 (9th Cir. 1997) (en banc); see also
Minore, 292 F.3d at 1117-19.
Colby frames the prosecutor’s statement as “ask[ing] jurors to identify
individually with the victims,” but, in context, that is not an accurate
characterization. Instead, the government was arguing about whether Embarcadero
Media, the alleged victim, had suffered reputational damage, and for that purpose
was asking the jurors to consider whether various people who interacted with
Embarcadero Media would think less of the company as a result of the attack.
Further, even if Colby were correct that “[t]he feelings of [subscribers,
advertisers, journalists, or informants] had no bearing on the economic loss which
the government was required to prove,” any error was harmless. The government
promptly withdrew the statement. The government also put on ample evidence
which showed the calculable economic damage was well above the $5,000
statutory threshold, without regard to any reputational injury. 18 U.S.C. §§
1030(a)(5)(A) & (c)(4)(B)(i). As a result, “it is more probable than not that the
error did not materially affect the verdict.” Morales, 108 F.3d at 1040.
AFFIRMED.

4

